         estimony

                    STATEMENT OF
                 ROBERT J. LIEBERMAN
              DEPUTY INSPECTOR GENERAL
               DEPARTMENT OF DEFENSE
                      BEFORE THE
         SUBCOMMITTEE ON NATIONAL SECURITY,
    VETERANS AFFAIRS AND INTERNATIONAL RELATIONS,
       HOUSE COMMITTEE ON GOVERNMENT REFORM
                          ON
    DEFENSE SECURITY SERVICE: MISSION DEGRADATION



Report No. D-2001-073        DELIVERED: March 2, 2001



             Office of the Inspector General
                 Department of Defense
Mr. Chairman and Members of the Subcommittee:



I am pleased to be here today to discuss the continuing and

serious challenges facing the Department of Defense Personnel

Security Program.   As you know from your hearings in February

and September 2000, the Department's ability to comply with

Federal guidelines on security clearances and to carry out the

several hundred thousand investigations needed annually for

initial clearances or updates virtually collapsed during the

late 1990's.   The causes included:   an ill-considered 40 percent

cut in Defense Security Service staffing, with no proportionate

decrease in workload; failure of the information system

acquisition project that was supposed to facilitate productivity

improvement; poor management oversight; and initial attempts to

deal with declining investigative productivity by arbitrarily

limiting the number of clearance investigation requests that

could be submitted by managers and commanders.



A series of reports from internal DoD management teams, the

General Accounting Office, and the Office of the Inspector

General, DoD, have addressed various aspects of the security

clearance process over the past few years.   (See attachment.)

Numerous recommendations have been made and generally accepted.

Whereas senior DoD leaders paid very limited attention to the

Defense Security Service before the crisis broke, during the
                                                                     2

past two years there has been considerable emphasis from the

highest levels of the Department.   Specific actions to turn

things around have included:   replacing the Director, Defense

Security Service; outsourcing a large percentage of the

investigative workload to the Office of Personnel Management and

contractors; turning project management responsibility for the

Defense Security Service's Case Control Management System over

to the Air Force; establishing goals for gradually eliminating

the backlog of unsubmitted requests for periodic reinvesti-

gations; and requiring frequent productivity reports to the

Office of the Assistant Secretary of Defense (Command, Control,

Communications and Intelligence).



On February 8, 2001, the Office of the Assistant Secretary

circulated an internal report calling attention to shortfalls in

execution of the June 2000 DoD "spend plan," which calls for

achieving a "steady state" by the end of FY 2002.   The "steady

state" would include drastically improved cycle times for

clearance investigations and elimination of both backlogged

requests and investigations.   To achieve those goals, about 2.2

million investigations would have to be completed between

October 2000 and September 2002.    The report concluded that bold

action was needed to attain the goals of the plan, because

performance reports for the first 4 months of FY 2001 were not
                                                                   3

encouraging.   If DoD fails to achieve its goals, continued

degradation of a wide variety of Defense missions would result.



Overall Context

Productivity problems at the Defense Security Service are the

principal focus of the February 8 report, which is appropriate

because the investigation phase of the clearance process is

currently the most troubled.   It is important to keep in mind,

however, that there are risks and issues across the spectrum of

activities involved in this process.



We have reported "front end" problems related to the lack of

reliable estimates from throughout the Department on how many

clearances of various types are needed and what the resulting

inflow of requests for initial investigations and periodic

reinvestigations will be.   Investigation and adjudication

organizations cannot determine resource requirements and process

options without receiving reliable workload forecasts.   The

separate problem of a backlog of unsubmitted requests was

mentioned previously.



There have always been additional "front end" inefficiencies in

terms of late, incomplete or otherwise inadequately completed

background information and request forms provided by individuals

and their security offices to the investigative agencies.     We
                                                                   4

understand that there are also problems currently because many

requests are being sent to the wrong investigators, i.e., to the

Defense Security Service instead of to the Office of Personnel

Management.



Following investigations, there is a crucial adjudication phase

for each case where derogatory information has been reported.

The General Accounting Office, my audit staff and the media have

raised issues concerning the quality and consistency of

adjudication decisions, the training of adjudicators and the

capacity of the eight DoD central adjudication facilities to

handle increased workload.



In other words, there are concerns related to training, quality

and output throughout the cycle of request preparation,

submittal, investigation and adjudication.     Various DoD

organizations are responsible for each phase of the cycle and

backlogs are a problem at each phase.     I stress this point

because progress in one phase can easily be negated by failure

to overcome problems in the other phases.     For example,

eliminating the backlog of unsubmitted requests accomplishes

little if the investigative agencies cannot cope with their

workload.     Similarly, the value of increased investigative

output is undermined if the adjudication offices cannot keep up

and another backlog develops there.     To the individual, the
                                                                     5

contractor or the DoD office awaiting confirmation of an initial

clearance or an update, it makes no difference how many places

in the pipeline are clogged or where the problems lie.    The

bottom line is that their needs are not being met.



In terms of the overall context of this discussion, it should

also be noted that the sheer scale of activity (2.1 million

clearances needed by DoD and its contractors) and the dispersion

of responsibilities among hundreds of offices make it imperative

that good information technology support be provided.    Security

managers, investigators, adjudicators and senior level reviewers

need to have reliable information systems to perform

efficiently.     Unfortunately, the DoD historically has not had a

strong record in the support systems area and the entire Defense

Personnel Security Program clearly has been hampered by

inadequate systems for many years.



Current Status

The Office of the Assistant Secretary of Defense (Command,

Control, Communications and Intelligence) has shared the

February 8 report and other statistics with us that indicate

decidedly mixed progress in drawing down the time required to

process clearance actions and reducing the backlog of incomplete

actions.
                                                                     6

It is likely that much of the data being used to track progress

against the plan is flawed, but the errors are probably not

egregious enough to distort the overall trends, which are very

disappointing.    It is clear that Defense Security Service output

did not begin to exceed input until December 2000, despite

assertions at various hearings last year that the corner would

be turned as early as April 2000, that the strong August 2000

performance was the turning point, or that the number of cases

pending would be cut almost in half by now.    The number of

pending cases as of early February 2001 was about 444,000, as

compared to a reported 397,000 in February 2000.



Of all the categories of investigation actions, the statistics

that I find most troubling are those for the top secret initial

investigations and periodic reinvestigations.    Top secret

clearances are intended to protect the most sensitive national

security data.    The prospect of vital positions going unfilled

because of delayed initial clearances or of those positions

being held by individuals with grossly outdated clearances, both

on a mass scale, is clearly disturbing.    According to January

2001 Defense Security Service data, however, it is taking 403

days on average for initial top secret investigations, compared

to 359 days in September 2000, when you had your last hearing on

this subject.    Likewise, it is taking 470 days on average for

top secret periodic reinvestigations, compared to 386 days in
                                                                   7

September 2000.   About 16,000 pending top secret initial cases

and 15,000 updates are over a year old.   The trends since this

time last year have gone the wrong way, as far as this most

sensitive part of the investigative workload is concerned.



Digging Out

Mr. Chairman, I believe that there is a healthy level of

security awareness throughout the Department of Defense and

clear recognition by its leadership that the personnel security

clearance area is generating undue risk and must be improved.

Director Cunningham has certainly worked hard to turn around the

dire situation that he inherited and the Office of the Assistant

Secretary of Defense (Command, Control, Communications and

Intelligence) has been working closely with the security

community to improve coordination between the many players and

to solicit ideas for overcoming these tough problems.   The

persistence of some of these problems is not the result of

apathy.   Nevertheless, unless there are as yet unexplained

prospects for dramatic productivity improvement, I do think that

additional management actions are needed.



In my view, DoD should take advantage of the fact that there are

multiple sources for clearance investigative support and

maximize competition between Defense Security Service staff,

Defense Security Service contractors and the Office of Personnel
                                                                    8

Management's contractors.   In the past, work has been outsourced

based on the type of case involved, with the Defense Security

Service keeping the most complex investigations.   I believe each

type of investigation should go to whomever performs most

efficiently, period.   If the Office of Personnel Management and

its contractors can handle more workload, I question why DoD

would even hesitate to outsource more cases to them right now.



At a Senate hearing last April and at your hearing last

September, we summarized multiple audit recommendations into six

general points, saying that DoD needed to:



     o more actively oversee and manage the investigation and

adjudication workload, with the expressed intent of maintaining

high standards for both quality and timeliness;



     o implement performance metrics that will measure both the

quality and timeliness of investigative and adjudication

workload;



     o periodically assess and adjust the resource requirements

for investigation and adjudication;



     o develop a uniform, DoD-wide priority system for security

clearance investigations;
                                                                      9




     o improve tracking of security clearance requests and

feedback to requestors on case status; and



     o closely monitor management of the Case Control Management

System and the Joint Personnel Adjudication System.



In general, management has tried to follow this advice, but the

implementation of improvements has been frustratingly slow in

many instances.     I am sure that Assistant Secretary Money,

Director Cunningham and other senior managers share those

frustrations.     To cite a few examples:



     o We recommended in May 2000 that the Defense Security

Service track all clearance requests received until

investigative cases are opened.     Although the future Joint

Personnel Adjudication System is the long term solution, it was

agreed that the Case Control Management System would be modified

this year as an interim alternative.     Due to subsequent slippage

in rebaselining the system, the change may not be made until

FY 2002.   In the meantime, requestors lack reliable feedback on

submitted cases.



     o In April 2000, we recommended immediately establishing an

investigative case prioritization process.     New standards were
                                                                  10

finally established in December 2000, but cannot be fully

implemented until at least April 2001 because of delays in

fielding the critical version 2.2 of the Electronic Personnel

Security Questionnaire and version 2.19 of the Case Control

Management System.



     o In April 1998, we recommended that DoD implement a peer

review program among the central adjudication facilities and

establish certification standards for adjudicators.   These

matters, plus others pertaining to additional recommendations,

are either awaiting the long overdue reissuance of DoD

Regulation 5200.2-R or a pending GAO report.



We do not know what adjustments have been made or will be made

to the FY 2001 and FY 2002 Defense budgets, but it is important

for DoD and Congress to have assurance that sufficient resources

are earmarked to attain effective operations in all phases of

the security clearance management process.   It would be very

unfortunate if concerns about spending on "overhead" or

"headquarters" functions deterred prudent investments in this

critically important facet of the overall Defense security

posture.
                                                                   11

Summary

In conclusion, we view the performance statistics from the late

FY 2000 through early FY 2001 period with concern.   We included

the personnel clearance problem in the list of Top DoD

Management Challenges submitted to congressional leaders last

December and recommend continued DoD and congressional oversight

until this problem is truly solved.   With sustained management

emphasis, I am confident that ultimately it is fixable, but the

current goal of eliminating investigative backlogs by

September 30, 2002, is clearly at risk.   In addition, it is

uncertain that the backlogged cases would be adjudicated until

well after that date.   My staff and I stand ready to work with

the Department's managers to determine what adjustments to the

current approach are feasible and necessary.



This concludes my statement.



Attachment
           Recent Office of the Inspector General, DoD
             Reports on Personnel Security Clearances




Report No. D-2001-065, DoD Adjudication of Contractor Security
Clearances Granted by the Defense Security Service, February 28,
2001

Report No. D-2001-019, Program Management of the Defense
Security Service Case Control Management System, December 15,
2000

Report No. D-2001-008, Resources of DoD Adjudication Facilities,
October 30, 2000

Report No. D-2000-134, Tracking Security Clearance Requests,
May 30, 2000

Report No. D-2000-111, Security Clearance Investigative
Priorities, April 5, 2000

Report No. D-2000-072, Expediting Security Clearance Background
Investigations for Three Special Access Programs, January 31,
2000 (SECRET)

Report No. 98-124, Department of Defense Adjudication Program,
April 27, 1998

The full text and summaries of the unclassified reports are
available on-line at www.dodig.osd.mil




                                        Attachment
